No. 20-353

In the Supreme Court of the United States
__________________
J.H., BY CONSERVATOR, BETTY HARRIS,
Petitioner,
v.
WILLIAMSON COUNTY, TENNESSEE, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
__________________
BRIEF IN OPPOSITION
__________________
LISA M. CARSON
Counsel of Record
LEE ANN THOMPSON
BUERGER, MOSELEY & CARSON, PLC
306 Public Square
Franklin, TN 37064
(615) 794-8850
lcarson@buergerlaw.com
lthompson@buergerlaw.com
Counsel for Respondents

October 12, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
A. Factual Background. . . . . . . . . . . . . . . . . . 1
B. Procedural Background . . . . . . . . . . . . . . . 7
REASONS FOR DENYING THE PETITION. . . . . . 9
I.

This case is a poor vehicle for addressing the
Questions Presented . . . . . . . . . . . . . . . . . . . . 9
A. Petitioner did not press and the Sixth
Circuit did not pass upon the Questions
Presented for review . . . . . . . . . . . . . . . . . 9
B. Open questions regarding whether
genuine issues of material fact exist
render this case a poor vehicle for
addressing the Questions Presented . . . . 12
C. The resolution of the first Question
Presented would not change the outcome
of this case. . . . . . . . . . . . . . . . . . . . . . . . . 15
D. The resolution of the second Question
Presented would not change the outcome
of this case. . . . . . . . . . . . . . . . . . . . . . . . . 19

II.

The Court of Appeals decision does not
conflict with any other circuit, nor do the
other public policy concerns cited by J.H.
justify review of this particular case . . . . . . 29

ii
III.

The lower courts’ grant of qualified immunity
was correct . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

iii
TABLE OF AUTHORITIES
CASES
Alexander v. Vittitow,
2017 U.S. App. LEXIS 22601
(6th Cir. Nov. 9, 2017) . . . . . . . . . . . . . . . . . . . . 18
Anderson v. City of Minneapolis,
2020 U.S. LEXIS 3220
(June 15, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Anderson v. Creighton,
483 U.S. 635 (1987). . . . . . . . . . . . . . . . . . . . . . . 22
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986). . . . . . . . . . . . . . . . . . . . . . . 13
Apodaco v. Raemisch,
139 S.Ct. 5 (2018) . . . . . . . . . . . . . . . . . . . . . . . . 32
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . . . . . . . 22
Baxter v. Bracey,
140 S.Ct. 1862 (2020) . . . . . . . . . . . . . . . . . . 30, 31
Bell v. Wolfish,
441 U.S. 520 (1979). . . . . . . . . . . . 8, 11, 26, 33, 34
Bishawi v. Ne. Ohio Corr. Ctr.,
628 F. App’x 339 (6th Cir. 2014) . . . . . . . . . . . . 18
Bowens v. Wetzel,
674 F. App’x 133 (3d Cir. 2017) . . . . . . . . . . . . . 23

iv
Brennan v. Dawson,
2020 U.S. LEXIS 3209
(June 15, 2020) . . . . . . . . . . . . . . . . . . . . . . . 30, 31
Brosseau v. Haugen,
543 U.S. 194 (2004). . . . . . . . . . . . . . . . . . . . . . . 17
Corbitt v. Vickers,
2020 U.S. LEXIS 3152
(June 15, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Davis v. Ayala,
135 S. Ct. 2187 (2015). . . . . . . . . . . . . . . . . . . . . 21
Doe v. Hommrich,
2017 U.S. Dist. LEXIS 42290
(M.D. Tenn. March 22, 2017) . . . . . . . . . . . . 20, 31
District of Columbia v. Wesby,
138 S. Ct. 577 (2018). . . . . . . . . . 10, 17, 19, 33, 34
Evans v. Vinson,
427 F. App’x 437 (6th Cir. 2011) . . . . . . . . . . . . 18
Graham v. Florida,
560 U.S. 48 (2010). . . . . . . . . . . . . . . . . . . . . . . . 22
Haralson v. Campuzano,
356 F. App’x 692 (5th Cir. 2009) . . . . . . . . . . . . 18
Hernandez v. Velasquez,
522 F.3d 556 (5th Cir. 2008). . . . . . . . . . . . . . . . 18
Hill v. Hickman Cnty. Jail,
2015 U.S. Dist. LEXIS 110865
(M.D. Tenn. Aug. 21, 2015) . . . . . . . . . . . . . . . . 23

v
Hope v. Pelzer,
536 U.S. 730 (2002). . . . . . . . . . . . . . . . . . . passim
In re Medley,
134 U.S. 160 (1890). . . . . . . . . . . . . . . . . . . . . . . 21
Jones v. Baker,
155 F.3d 810 (6th Cir. 1998). . . . . . . . . . . . . . . . 19
Lujan v. Nat’l Wildlife Fed’n,
497 U.S. 871 (1990). . . . . . . . . . . . . . . . . . . . . . . 14
Mackey v. Dyke,
111 F.3d 460 (6th Cir. 1997). . . . . . . . . . . . . . . . 19
Merchants v. Hawk-Sawyer,
37 F. App’x 143 (6th Cir. 2002) . . . . . . . . . . . . . 18
Miller v. Alabama,
132 S.Ct. 2455 (2012) . . . . . . . . . . . . . . . . . . . . . 22
Mullenix v. Luna,
577 U.S. 7 (2015). . . . . . . . . . . . . . . . . . . 10, 20, 34
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . . . . 31
Powell v. Washington,
2017 U.S. App. LEXIS 25477
(6th Cir. Dec. 18, 2017) . . . . . . . . . . . . . . . . . 26, 28
Reichle v. Howards,
566 U.S. 658 (2012). . . . . . . . . . . . . . . . . . . . . . . 17
Rhodes v. Chapman,
452 U.S. 337 (1981). . . . . . . . . . . . . . . . . . . . . . . 26

vi
Rimmer-Bey v. Brown,
62 F.3d 789 (6th Cir. 1995). . . . . . . . . . . . . . . . . 19
River v. Turner,
2017 U.S. App. LEXIS 25764
(6th Cir. Dec. 15, 2017) . . . . . . . . . . . . . . . . . . . . 26
Roper v. Simmons,
543 U.S. 551 (2005). . . . . . . . . . . . . . . . . . . . . . . 22
Sandin v. Conner,
515 U.S. 472 (1995). . . . . . . . . . . . . . . . . . . . . . . 19
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . . . . 20
Taylor v. Barkes,
575 U.S. 822 (2015). . . . . . . . . . . . . . . . . . . . . . . 11
Thompson v. Coulter,
680 F. App’x 707 (10th Cir. 2017) . . . . . . . . . . . 23
Tucker v. Louisiana,
136 S.Ct. 1801 (2016) . . . . . . . . . . . . . . . . . . . . . 28
United States v. Lanier,
520 U.S. 259 (1997). . . . . . . . . . . . . . . . . . . . . . . 17
West v. Winfield,
2020 U.S. LEXIS 3153
(June 15, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 31
White v. Pauly,
137 S.Ct. 548 (2017) . . . . . . . . . . . . . . . . . . . 10, 34
Wilson v. Layne,
526 U.S. 603 (1999). . . . . . . . . . . . . . . . . . . . . . . 17

vii
Zadeh v. Robinson,
2020 U.S. LEXIS 3170
(June 15, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Ziglar v. Abbasi,
137 S.Ct. 1843 (2017) . . . . . . . . . . . . . . . . . . 11, 30
STATUTES
Tenn. Code Ann. § 37-1-101 . . . . . . . . . . . . . . . . . . . 32
Tenn. Code Ann. § 41-1-140 . . . . . . . . . . . . . . . . . . . 25
OTHER AUTHORITIES
Carl B. Clements, et al., Systemic Issues and
Correctional Outcomes, Expanding the Scope of
Correctional Psychology, CRIMINAL JUSTICE
AND BEHAVIOR, Vol. 34 No. 7, July 2007 . . . 27, 28
Maureen L. O’Keefe, et al., A Longitudinal Study
of Administrative Segregation, 41 J AM ACAD
PSYCHIATRY LAW 49 (2013). . . . . . . . . . . . . . . . 27
National Standards to Prevent, Detect, and
Respond to Prison Rape, 77 Fed. Reg. 37106
(2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

viii
Paul Gendreau & Ryan Labrecque, The Effects of
Administrative Segregation: A Lesson in
Knowledge Cumulation, in The Oxford
Handbook of Prisons and Imprisonment (John
Wooldredge and Paula Smith eds., 2015) . . . . . 27
U.S. Department of Justice Report and
Recommendations Concerning the Use of
Restrictive Housing, Final Report, January
2016. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

1
INTRODUCTION
Respondents respectfully submit that the Court
should deny the Petition for a Writ of Certiorari. The
judgment below granting qualified immunity to
McMahan was solidly grounded in this Court’s
precedents. This Court should reject the invitation to
use this case to address abstract issues concerning
qualified immunity that would not impact the outcome
of this matter. The Petition presents no compelling
reason for this Court’s review.
STATEMENT OF THE CASE
A.

Factual Background

Petitioner, J.H., challenges the grant of qualified
immunity to Respondent Steve McMahan related to
J.H.’s housing placement during a 21-day period in
November and December 2013 while he was detained
at the Williamson County Juvenile Detention Center
(“WCJDC”). J.H. refers to his placement as “solitary
confinement” but that characterization is inaccurate,
given that J.H. was permitted to have daily in-person
visits and phone calls with his parents and he
interacted with other adults, including a nurse, his
psychiatrist, his attorney, his guardian ad litem, and
detention staff during the 21-day period of detention
challenged by the Petition. Pet. App. 32a–33a.
McMahan was the detention supervisor of the
WCJDC in 2013. He has since retired. The WCJDC is
a small, 12-bed juvenile detention facility that typically
houses juveniles for very short periods of time. Pet.
App. 31a, 45a; R. 333-1, PageID#10557, 10600, 10603.

2
J.H. has an extensive history with the Williamson
County Juvenile Court. He was detained in the
WCJDC on October 13, 2013 after the Franklin Police
Department filed petitions alleging that he had taken
his mother’s car without permission and wrecked it in
a field. At the time, J.H. was on probation and on inhome detention related to other offenses, including a
previous incident in which he had taken another car
without permission and driven it into a ditch. His
juvenile court history included, among other things,
petitions for bullying his younger brother, harassing a
special needs student at his school, physically
assaulting his younger brother, and assaulting his
mother. Pet. App. 31a; R. 111-1, PageID#1361–69.
On October 25, 2013, by Order of the Juvenile
Court, J.H. was furloughed into the custody of his
mother for the specific purpose of being transported for
evaluation and treatment at a neurological treatment
facility. On November 14, 2013, upon discovering that
J.H. was not in a treatment facility, but at the home of
his maternal grandmother, the Juvenile Court ordered
that he be returned to the detention center. Because of
the significant safety issues created each time J.H. was
in his mother’s care, and because his attorney
requested a competency evaluation before disposition
of the juvenile petitions, he was then held pending
disposition. Pet. App. 3a; R. 333-1, PageID#10546–48,
10560–63.
Upon his return to the WCJDC on November 15,
2013, J.H. was placed in a dormitory with other
juveniles. On November 17, 2013, J.H. was the subject
of a report made to intake officers by three other

3
juveniles, who alleged that they were afraid of him
because he had become angry, destroyed property,
punched a window, and threatened to harm and
sexually assault them if they reported his conduct.1
J.H. denies making the alleged threats but admitted to
certain conduct described by the other juveniles,
including punching the window of the dormitory,
destroying a shoe, and throwing an “anger fit.” J.H.
was moved to a single cell for safety reasons after this
report. Pet. App. 31a–33a; R. 333-1, PageID#10552–53.
The reason for placing J.H. in a single cell was to
keep him safe from other kids and to keep other kids
safe from him. The determination to place J.H. in a
single cell resulted from the November 17 incident
combined with the general observation that J.H. did
not get along well with other juveniles, and J.H.’s
history of violent and aggressive behavior. Pet. App. 5a,
31a–32a.
McMahan’s assessment that J.H. presented a risk
to other juveniles was reasonable and supported not
only by the report of the three juveniles housed with
J.H., but also by J.H.’s Juvenile Court petitions for
bullying and assault. McMahan’s conclusion is also

1

J.H.’s assertion that “one of the juveniles recanted his story” (Pet.
11) is misleading. While one of the juveniles claimed in a
deposition years after J.H.’s detention that he fabricated
allegations against J.H. to get J.H. removed from the dormitory, it
is undisputed that the three juveniles reported to juvenile
detention officers that the actions described in the incident report
occurred and that none of the juveniles recanted their allegations
to detention staff while J.H. was housed in detention. Pet. App.
43a; R. 333-1, PageID #10552–53.

4
bolstered by statements of J.H.’s physicians2 and
judicial determinations.3 Pet. App. 31a–32a; R. 111-1,
PageID#1361–62.
While he was housed in a single cell, J.H. was not
permitted to interact with other juveniles due to safety
concerns, but he was permitted phone calls with his
parents; regular in-person visits with his father; and
regular visits with his mother until she tried to bring
prescription medication into the facility without
authorization, at which time her visits were limited to
thirty minutes a week. He visited with other adults
including the nurse, his psychiatrist, his attorney, and
his guardian ad litem. J.H. also interacted with
detention staff. He spent time in the TV room,
recreation areas (both indoors and outdoors), and in the
hallway working on homework. He was allowed to have
books in his cell. Pet. App. 31a–33a, 54a; R. 231-3,
PageID#4492.

2

In the fall of 2013, J.H.’s psychiatrist opined that he “represents
a very real risk to other children, thus I will not release him
to be in a school environment, as I am concerned for his
behavior” and a letter from another physician stated that J.H.
“continue[d] to exhibit significant physically and verbally
aggressive behaviors that [were] creating extreme safety
challenges at home for him and his family.” Pet. App. 31a–32a; R.
386, PageID# 13270–71.
3

Juvenile Magistrate Rogers stated his concern in November 2013
that, if released, J.H. “is a danger to the rest of the community.” In
December 2013, Judge Guffee determined that placement in a
single cell was necessary “for [J.H.’s] protection and for “everyone
else’s protection[.]” R. 333-1, PageID# 10561, 10584.

5
Contrary to J.H.’s allegations in the Petition,
throughout his stay in detention, he was provided with
medical and mental health treatment in accordance
with his physicians’ instructions. J.H. alleges that he
has a medical diagnosis of PANDAS,4 which he claims
manifests in a variety of behavioral and psychiatric
disturbances. While in the WCJDC, detention staff
administered oral antibiotics as prescribed by Dr.
Elizabeth Latimer, the physician who was treating him
for PANDAS. J.H. saw Dr. Latimer the day after his
release from detention and she observed that he
“appear[ed] more calm and in less distress.” Detention
staff also administered medications prescribed by a
psychiatrist who was treating J.H., Dr. Amanda
Sparks-Bushnell, and McMahan communicated with
her regarding dosages. J.H. was transported to an
appointment with his psychiatrist on December 6, 2013
and she noted improvement in his condition since his
placement in detention. J.H. was also examined by a
nurse while in detention. Both lower courts found as a
matter of law that J.H. received constitutionally
adequate medical and mental health treatment in
detention and the Petition does not challenge that
determination. Pet. App. 22a–23a, 53a–57a; R. 333-1,
PageID#10569.
On December 7, 2013, J.H. alleged that he was
sexually assaulted by juvenile detention employee

4

“PANDAS” stands for Pediatric Autoimmune Neuropsychiatric
Disorders Associated with Streptococcal Infections. Pet. App. 2a.
The existence of and diagnostic criteria for PANDAS are disputed.
However, whether the condition exists and whether J.H. was
properly diagnosed are irrelevant for purposes of this Petition.

6
Cruz. Cruz denies that he assaulted J.H. The Sixth
Circuit affirmed summary judgment in favor of
Williamson County as to J.H.’s claims of negligent
training and supervision of Cruz and the Petition does
not challenge that determination. Pet. App. 23a–24a,
53a, 58a.
On December 9, 2013, upon a motion from J.H.’s
mother, Juvenile Judge Sharon Guffee reviewed the
terms of J.H.’s confinement. At this hearing, J.H.’s
mother’s attorney introduced a letter from Dr. Latimer
stating that although J.H. should not remain in
detention long term, her “medical recommendation
would be for [J.H.] to remain at the detention center
until [her office was] able to assess his condition and
work with a treatment facility to get him transitioned.”
Her recommendation was based upon reports from
J.H.’s mother about J.H.’s behavior at home and
resulting police encounters. Judge Guffee ordered that
J.H. remain in detention segregated from other
juveniles and further limited J.H.’s parental visitation
and phone calls.5 J.H. was released from detention on

5

Even after the Juvenile Court limited contact with his parents on
December 9, 2013, detention staff continued to permit J.H. to have
regular interaction with adults. Detention staff continued to talk
with J.H. He had visits from his guardian ad litem, a DLAC
advocate, his attorney, a psychologist, a detective, and a
supervised visit with his parents during that time. Pet. App. 32a,
54a–55a; R. 333-1, PageID#10575, 10586.
The District Court determined that Judge Guffee was entitled
to judicial immunity for her December 9, 2013 decisions and held
that Adgent and McMahan were entitled to quasi-judicial
immunity for their actions in implementing Judge Guffee’s order.
Pet. App. 6a. J.H. did not appeal those determinations.

7
December 19, 2013.
PageID#10581–84.
B.

Pet.

App.

5a;

R.

333-1,

Procedural Background

Petitioner initially pursued various claims against
Williamson County, Judge Sharon Guffee, Betsy
Adgent and Steve McMahan, and summary judgment
was granted, and affirmed, as to all claims against
those parties. The Petition challenges only the grant of
qualified immunity to McMahan related to J.H.’s claim
that his substantive due process rights were violated
when he was placed in a single cell from November 17
to December 8, 2013.
The district court granted qualified immunity in
favor of McMahan as to J.H.’s “solitary confinement”
claim. Pet. App. 48a. The district court declined to
assess the first prong of qualified immunity, opting
instead to begin with the second prong and concluding
that J.H. had not shown a violation of clearly
established law. Pet. App. 48a.
The Sixth Circuit affirmed the grant of qualified
immunity to McMahan. The panel majority held that
if J.H.’s assertions that “he was kept in solitary
confinement as punishment for the November 17
incident, and that while in segregation he was fully
isolated” were true, there would have been a
constitutional violation6, but qualified immunity would

6

Notably, the panel did not make a finding that J.H.’s
characterization of events was true, but rather assumed the
accuracy of his assertion that he was “fully isolated” for purposes
of the Constitutional analysis.

8
apply. The panel majority held that the right at issue
was not clearly established as of 2013, noting that
many of the cases addressing solitary confinement were
issued after 2013. Pet. App. 10a-17a.
Judge Readler wrote a concurrence agreeing with
the majority’s holding that Respondents did not violate
clearly established law but disagreeing with the
majority’s assessment that the conduct ran afoul of
substantive due process principles. Pet. App. 26a.
The concurrence noted that Bell v. Wolfish, 441 U.S.
520 (1979) was intended to prevent pretrial
punishment for acts committed before one is detained
and was not “intended to apply in the context of an
official’s effort to remedy misconduct committed while
in custody.” Pet. App. 27a. Because the change in J.H.’s
housing placement is alleged to be punishment for the
November 17 incident and not for the underlying
delinquent conduct that landed J.H. in the detention
center, Bell should not apply. Pet. App. 29a.
Even if Bell applied, Judge Readler opined that
given the November 17 report and the opinions
expressed by J.H.’s own physicians, “there was a
legitimate basis for believing J.H. was a threat to
others, and for acting accordingly, to ensure safety
given the specific confines of the detention facility.”
Pet. App. 32a. Under Bell, detention officials are to be
given “wide-ranging deference in the adoption and
execution of policies and practices that in their
judgment are needed to preserve internal order and
discipline and to maintain institutional security.” Pet.
App. 32a (citing Bell, 441 U.S. at 547).

9
In Judge Readler’s assessment, the restrictions
employed were not excessive. Judge Readler noted that
while J.H. was not allowed to interact with juveniles,
he had regular phone calls and visits with his parents
as well as visits with a doctor, a psychologist, his
attorney and his guardian ad litem. He further noted
that J.H. conversed with guards, had books in his cell
and was allowed privileges outside his cell, including
visits to the “rec yard,” exercising, watching T.V. and
doing his homework in the hallway. Pet. App. 32a.
These measures “honor[ed] the security concerns of the
other detainees, who themselves enjoy constitutional
protections from deliberate indifference of their
detention officials.” Pet. App. 33a. Judge Readler found
that imposition of the restrictions was a reasonable
judgment call by the detention facility and that “there
was nothing reckless about how those officials balanced
the interests of J.H. with those of the other detainees.”
Pet. App. 33a. Accordingly, Judge Readler would have
held that there was no violation of J.H.’s substantive
due process rights.
J.H.’s request for en banc review was denied and
the Petition for a Writ of Certiorari followed.
REASONS FOR DENYING THE PETITION
I.

This case is a poor vehicle for addressing
the Questions Presented.
A.

Petitioner did not press and the
Sixth Circuit did not pass upon the
Questions Presented for review.

As to the first Question Presented, neither of the
lower courts held that Hope v. Pelzer, 536 U.S. 730

10
(2002), is “dead.” The Sixth Circuit even cited Hope in
its opinion. Pet. App. 10a. Review of this first question
is unnecessary.
In outlining the standard for qualified immunity in
the lower courts, J.H. did not identify two contradicting
qualified immunity analyses as he has done in the
Petition. Below, J.H. presented one cohesive qualified
immunity standard citing Hope and subsequent
Supreme Court precedent. R. 306, PageID#5639–40;
App. R. 13, Page: 28–30. However, in the Petition, J.H.
alleges that there is “a constant tension” between
Hope’s “fair warning” analysis and subsequent case
law, like Mullenix v. Luna, 577 U.S. 7 (2015), White v.
Pauly, 137 S. Ct. 548 (2017), and District of Columbia
v. Wesby, 138 S. Ct. 577 (2018), referencing “controlling
authority of particularized facts.” Pet. 22. J.H. did not
press this distinction below, but instead raises it for the
first time here. Similarly, in the lower courts, J.H. did
not articulate an argument that different qualified
immunity analyses should apply in life threatening
scenarios versus circumstances where a defendant has
an opportunity for deliberation and reflection.7 Pet. 12,

7

J.H. suggests that this Court’s jurisprudence requiring the
“clearly established” right to be sufficiently definite that any
reasonable official in the defendant’s shoes would have understood
that he was violating it developed only in the context of excessive
force claims brought under the Fourth Amendment, where there
is no opportunity for deliberation and reflection. Pet. 16-17.
However, this is not the case. This Court has applied the same
standard for qualified immunity in other contexts in recent years,
and the requirement that a public official have some specific notice
of the rights he is charged with upholding before being held liable
for violating them is not unique to excessive force cases. See, e.g.,

11
17; R. 306, PageID#5639–40; App. R. 13, Page: 28–30.
This Court is not the forum for arguments to be raised
for the first time and therefore, this case is not the
appropriate vehicle for addressing these issues.
As to the second Question Presented, the Sixth
Circuit did not engage in lengthy discussion of the
various non-judicial authorities cited by J.H. because
such is unnecessary to the resolution of this case.
Instead, the court below summarily (and correctly)
found that the inapplicable regulations, journal articles
and research papers identified by J.H. did not amount
to “clearly established law.” This holding is consistent
with this Court’s precedent and J.H. has not identified
any case law to the contrary. See Bell, 441 U.S. at 543
n.27 (holding that standards issued by various groups
and policy recommendations regarding conditions of
confinement are not determinative of Constitutional
requirements).
The Sixth Circuit did not analyze the Questions
Presented in this Petition and there is no compelling
reason for this Court to do so at this time. Instead, this
Petition is simply about J.H.’s belief that the Sixth
Circuit misapplied Hope v. Pelzer to the facts of this
case. That mistaken belief, however, does not justify a
grant of certiorari. See Supreme Court Rule 10 (“A
petition for a writ of certiorari is rarely granted when
the asserted error consists of erroneous factual findings
or the misapplication of a properly stated rule of law.”)

Taylor v. Barkes, 575 U.S. 822 (2015); Ziglar v. Abbasi, 137 S. Ct.
1843 (2017).

12
B.

Open questions regarding whether
genuine issues of material fact exist
render this case a poor vehicle for
addressing the Questions Presented.

Even if J.H. had raised the Questions Presented in
the courts below, this case would not be the case to
decide the continuing validity of Hope v. Pelzer because
of the manner in which the lower courts dealt with
perceived factual issues regarding J.H.’s conditions of
confinement. While both Courts agreed that McMahan
was entitled to qualified immunity based upon the
second prong of the analysis (“clearly established law”),
the manner in which the lower courts dealt with the
first prong of the analysis (whether a violation
occurred) has left an open question as to whether a
violation even occurred. The district court found that
there was a genuine issue of fact as to “how much
social interaction J.H. had while housed in a single
cell” in the context of evaluating J.H.’s motion for
summary judgment, not McMahan’s. Pet. App. 44a.
Respondents agree that there certainly was not
evidence to support a finding in J.H.’s favor as to that
issue. At the appellate level, the panel majority did not
disturb the district court’s determination, but instead
evaluated whether J.H. could show a constitutional
violation if his allegation that he was “fully isolated”
for punitive purposes was true. Pet. App. 10a.
The record reveals that the specific undisputed facts
are that J.H. had meaningful social contact including:
phone calls with his parents; regular in-person visits
with his father; regular visits with his mother (until
she tried to bring prescription medication into the

13
facility without authorization, at which time her visits
were limited by a judge to thirty minutes a week); and
visits with the nurse, his psychiatrist, his attorney, and
his guardian ad litem. J.H. conversed with detention
staff. He spent time in the TV room, recreation areas
(both indoors and outdoors), and in the hallway
working on homework. He was allowed to have books
in his cell. Pet. App. 31a–33a, 54a; R. 333-1,
PageID#10554, 10563–65, 10567, 10570.
The panel majority’s finding that a constitutional
violation would have occurred if J.H.’s allegations were
true and the notable absence of an opinion that a
constitutional violation indeed occurred under the
actual undisputed facts indicates that in the panel
majority’s view, the exact conditions of his confinement
were material to assessing the first prong of qualified
immunity: whether a constitutional violation occurred.
When one examines the undisputed facts, as opposed to
J.H.’s unsupported characterizations, it is clear that
J.H. was never “fully isolated” and was not deprived of
all meaningful social contact.8

8

The panel majority also left undisturbed the district court’s
finding that there was a genuine issue of fact as to “whether J.H.
was placed in a single cell as punishment or for safety reasons.”
Pet. App. 44a. Again, that finding by the district court was made
in the context of J.H.’s motion for summary judgment. J.H. has not
offered evidence (other than his own subjective perception) to
create an issue of fact as to Respondents’ contention that his
placement in a single cell was for safety reasons. See Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 256 (1986) (a party opposing
summary judgment “must set forth specific facts showing that
there is a genuine issue for trial.”).

14
J.H.’s conclusory allegation, therefore, likely should
not have been “assumed” true for purposes of summary
judgment. This Court previously held that in
evaluating a summary judgment motion, a district
court “‘must resolve any factual issue of controversy in
favor of the non-moving party’ only in the sense that,
where the facts specifically averred by that party
contradict facts specifically averred by the movant, the
motion must be denied. That is a world apart from
‘assuming’ that general averments embrace the
‘specific facts’ needed to sustain the complaint.” Lujan
v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888 (1990). The
concurring judge correctly credited the specific
undisputed facts, instead of J.H.’s unsupported
conclusory allegation. Pet. App. 31a.
However, even taking J.H.’s conclusory allegations
as fact, both the district court and the panel majority
correctly granted qualified immunity. While both
courts (and the concurring judge) ultimately reached
the correct conclusion in granting qualified immunity,
evaluating the facts under a different standard for
qualified immunity, or otherwise altering or
overturning the lower courts’ grant of qualified
immunity would require review of these perceived
factual issues and the underlying, unresolved question
of whether a constitutional violation even occurred,
making this case a poor vehicle for addressing the
Questions Presented.
Alternatively, if the courts below were correct and
J.H.’s conclusory allegations somehow create genuine
issues of fact, the unresolved factual disputes identified
by the lower courts would hamper this Court’s ability

15
to provide meaningful guidance to lower courts
regarding the qualified immunity analysis in the
context of this case, and therefore the Petition should
be denied.
C.

The resolution of the first Question
Presented would not change the
outcome of this case.

The continuing viability of Hope v. Pelzer is not
outcome determinative in this case because application
of Hope does not alter the conclusion that qualified
immunity is appropriate here. In Hope, prison guards
working for the Alabama Department of Corrections
(ADOC) were denied qualified immunity for punishing
an inmate by handcuffing him to a hitching post. 536
U.S. at 741-42. The inmate remained attached to the
post shirtless all day while the sun burned his skin.
During the seven hours he spent attached to the post,
he was given water once or twice and was not allowed
bathroom breaks. Id. at 734-35. Alabama was the only
state at that time that handcuffed prisoners to hitching
posts if they refused to work. Id. at 733.
The legal authority addressing the constitutional
violation at issue in Hope was far more robust than the
legal authority offered by J.H. in this case. In holding
that the prison guards were not entitled to qualified
immunity, the Court invoked moral reasoning, noting
the “obvious cruelty” of the conduct, but the Court did
not stop there. Id. at 745. The Court relied upon
binding Eleventh Circuit precedent condemning similar
but not identical practices, an ADOC regulation that
placed certain limits on the use of the hitching post
that were frequently ignored by officers, and a

16
Department of Justice report specifically advising the
ADOC of the unconstitutionality of its use of the
hitching post before the incidents in the case occurred.
Id. at 742-45.
J.H. argues that Hope looked to non-judicial
authorities (an ADOC regulation and a DOJ report) but
ignores that Hope also cited binding circuit precedent.
The Court did not hold that either the regulation or the
DOJ report was an independent basis for obviousness,
but rather relied upon a constellation of factors,
including binding precedent addressing similar
practices, in finding that a reasonable official would
have had fair notice of the unconstitutionality of his
conduct.
The situation here is very different. J.H. admits
that there was no controlling authority indicating that
his housing placement in the detention facility
amounted to a violation of his Fourteenth Amendment
rights. Pet. 1. J.H. has not cited any circuit court
opinion from before 2013 addressing either solitary
confinement of juveniles or housing of juveniles in
conditions like J.H.’s, where a juvenile detainee was
separated from other juveniles, but interacted
regularly with his parents and other adults. Instead, in
claiming that a reasonable official would have had
fair warning that his housing placement was
unconstitutional, J.H. relies on inapplicable regulations
and policies, journal articles, and research studies.
Contrary to J.H.’s assertions, Hope does not stand for
the proposition that these publications amount to
“clearly established law.”

17
While factually similar case law is usually required
to show clearly established case law, Hope leaves room
for the rare situation where the unlawfulness of
conduct is so obvious that it is indisputable that the
official had sufficient “fair warning.” By way of
example, Petitioner cites a hypothetical case wherein
welfare officials are accused of selling foster children
into slavery, which would be obviously unconstitutional
even in the absence of case law on point. Pet. 20 (citing
United States v. Lanier, 520 U.S. 259, 271 (1997)). This
Court’s more recent decisions underscore that
application of Hope’s “obvious” exception is indeed rare.
Wesby, 138 S. Ct. at 590; Brosseau v. Haugen, 543 U.S.
194, 199 (2004). The present case is far from the rare
obvious one.
A Sixth Circuit Judge opined in 2020 that J.H.’s
housing placement did not violate his constitutional
rights, making it clear that a reasonable juvenile
detention center employee in 2013 would not have had
fair warning that his actions violated constitutional
rights. Pet. App. 32a.9 Where even learned judges
disagree on a constitutional question, “it is unfair to
subject [officials] to money damages for picking the
losing side of the controversy.” Wilson v. Layne, 526
U.S. 603, 618 (1999); Reichle v. Howards, 566 U.S. 658,
670 (2012).

9

No opinion in this case found a violation of constitutional rights
under the actual undisputed facts presented. The majority opinion
expressly based its analysis on the premise that J.H.’s conclusory
allegations were true (which they are not) and the concurring
opinion found that there was no constitutional violation.

18
Unlike the hypothetical scenario of a welfare official
selling foster children into slavery, the lack of case law
in this area in 2013 is not indicative of obvious
unconstitutionality. The journal articles cited by J.H.
acknowledge that use of “solitary confinement” is
widespread for adults and juveniles. While cases
addressing solitary confinement of juveniles have
emerged since 2013, the case law, even for true solitary
confinement, was undeveloped at that time.
In the absence of controlling authority addressing
“solitary confinement” of juveniles in 2013, it would be
reasonable to look to the only possible corollary, case
law addressing segregated housing of adults, for
guidance. It is clear that in the context of adult
detention, even placement in true “solitary
confinement”, a term that cannot be said to describe
the conditions of J.H.’s detention, did not violate the
Eighth Amendment under Sixth Circuit precedent. See
Merchants v. Hawk-Sawyer, 37 F. App’x 143, 145 (6th
Cir. 2002); Alexander v. Vittitow, 2017 U.S. App. LEXIS
22601, at *12-13 (6th Cir. Nov. 9, 2017); Bishawi v. Ne.
Ohio Corr. Ctr., 628 F. App’x 339, 345-46 (6th Cir.
2014); Evans v. Vinson, 427 F. App’x 437, 443 (6th Cir.
2011).10 Single cell confinement cannot be considered
“obvious cruelty” within the meaning of Hope in light of
clear precedent holding that even much more
restrictive conditions are not cruel and unusual
punishment. Cases holding that short-term placement
in solitary confinement does not amount to an atypical

10

See also Haralson v. Campuzano, 356 F. App’x 692, 696-97 (5th
Cir. 2009); Hernandez v. Velasquez, 522 F.3d 556, 559 (5th Cir.
2008).

19
or significant hardship, even if not applicable to
pretrial detainees, are also instructive in this regard.
Sandin v. Conner, 515 U.S. 472 (1995); Jones v. Baker,
155 F.3d 810, 812 (6th Cir. 1998); Mackey v. Dyke, 111
F.3d 460, 463 (6th Cir. 1997); Rimmer-Bey v. Brown, 62
F.3d 789, 791 (6th Cir. 1995).11 The narrow exception
identified in Hope simply does not apply in this case.
Because this case does not turn on the applicability
of Hope, this Court need not address the first Question
Presented in the Petition.
D.

The resolution of the second
Question Presented would not
change the outcome of this case.

The Sixth Circuit’s determination that the sources
relied upon by J.H. do not amount to “clearly
established law” is consistent with this Court’s
precedent. Outside of the rare, obvious case referenced
in Hope, this Court has repeatedly emphasized that
“clearly established” entails the existence of clear
precedent applicable to the circumstances at issue.
Wesby, 138 S. Ct. at 589-90. To be clearly established,
a legal principle must have a “sufficiently clear
11

Contrary to Petitioner’s assertion, Respondents did not argue
that “there was no difference between prisoners and pre-trial
detainees, therefore requiring the Court to use the ‘atypical and
significant hardship’ test described in Sandlin (sic) v. Conner, 515
U.S. 472, 484 (1995).” Pet. 26. Respondents acknowledge the
different constitutional provisions related to pretrial and postconviction detainees and cite Sandin and its progeny simply as
additional support demonstrating that the state of the law in 2013
did not provide fair warning that short-term solitary confinement
might be viewed as unconstitutional.

20
foundation in then-existing precedent.” Id. at 589. “It
is not enough that the rule is suggested by thenexisting precedent. The precedent must be clear enough
that every reasonable official would interpret it to
establish the particular rule the plaintiff seeks to
apply.” Id. at 590. To be clearly established, the legal
principle must prohibit the official’s conduct in the
particular circumstances before him. Id. “The rule’s
contours must be so well defined that it is ‘clear to a
reasonable officer that his conduct was unlawful in the
situation he confronted.’” Id. (citing Saucier, 533 U.S.
at 202). A high degree of specificity is required. Id.
(citing Mullenix v. Luna, 577 U.S. 7 (2015)).
The case law cited by J.H. does not show a violation
of clearly established law in 2013. J.H. cites Doe v.
Hommrich, 2017 U.S. Dist. LEXIS 42290 (M.D. Tenn.
March 22, 2017), which addresses punitive solitary
confinement.12 Even if the instant case involved
punitive confinement (which is disputed), Hommrich
was not decided until 2017, years after J.H.’s detention.
While certainly instructive for detention staff going
forward, Hommrich is not determinative of “clearly
established law” in 2013. This distinction was correctly
recognized by the district judge in the instant case, who
also authored the Hommrich opinion.

12

J.H. notes that the Hommrich Court cited scientific findings and
international authorities, some of which were also cited by J.H.
While such materials were evaluated in addressing the request for
preliminary injunctive relief (not damages) in Hommrich, they are
not indicative of clearly established law for purposes of qualified
immunity.

21
The concurrence in Davis v. Ayala, 135 S. Ct. 2187
(2015), which urges further consideration of the issue
of solitary confinement,13 is also not instructive. That
case was published two years after the events in this
action and therefore was not available in 2013.
Further, Justice Kennedy notes “indications of a new
and growing awareness in the broader public of the
subject of corrections and of solitary confinement in
particular,” citing reports from 2014 and 2015. Id. at
2210. He acknowledges the potential harm of solitary
confinement and states: “Of course, prison officials
must have discretion to decide that in some instances,
temporary, solitary confinement is a useful or
necessary means to impose discipline and to protect
prison employees and other inmates.” Id.
The
acknowledgement in 2015 that these issues warrant
further discussion underscores the lack of clearly
established law in 2013 as to constitutional parameters
of segregated housing.
In re Medley, 134 U.S. 160, 170 (1890), is also not
indicative of clearly established law. Since it was
decided, courts, including the Supreme Court, have
held that even true solitary confinement does not
implicate a protected liberty interest (except where of
significant duration, which is obviously not at issue in
13

Justice Kennedy identifies the “usual pattern” of solitary
confinement as being held “all or most of the past twenty years or
more in a windowless cell no larger than a typical parking spot for
twenty-three hours a day; and in the one hour when he leaves it,
he likely is allowed little or no opportunity for conversation or
interaction with anyone.” Id. at 2208. The conditions of
confinement described by Justice Kennedy were not the conditions
of J.H.’s confinement at WCJDC.

22
this case). Therefore, that case cannot be viewed as
clearly establishing law with respect to even true
solitary confinement.
J.H. cites Graham v. Florida, 560 U.S. 48 (2010),
Roper v. Simmons, 543 U.S. 551 (2005), and Miller v.
Alabama, 132 S. Ct. 2455 (2012), for the proposition
that the standard of care for juveniles is different than
for adults. While those cases indicate that juveniles are
treated differently than adults for some purposes, i.e.
the death penalty and sentencing to life without parole,
they do not address solitary confinement of juvenile
detainees. The broad general proposition that juveniles
are different from adults is not sufficient to set forth
the contours for the housing of juveniles in detention
settings such that the circumstances of this case could
be considered a violation of “clearly established law” in
2013. Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011)
(noting that “‘clearly established law’ should not
be defined ‘at a high level of generality.’”);
Anderson v. Creighton, 483 U.S. 635, 640 (1987)
(clearly established law must be “particularized” to the
facts of the case and “the contours of the right must be
sufficiently clear that a reasonable official would
understand that what he is doing violates that right.”).
J.H. acknowledges that case law does not clearly
establish that his constitutional rights were violated by
his housing placement in 2013. Pet. 1. In the absence
of such authority, J.H. relies on regulations and
policies that were not applicable to the WCJDC in
2013, journal articles and research studies, but those
sources also do not amount to “clearly established law.”

23
J.H.’s reliance on PREA and DCS regulations is
misplaced because neither PREA nor the DCS
regulations cited by J.H. were controlling authority as
to the WCJDC in 2013.
PREA does not establish a private right of action
and a plaintiff may not “attempt to enforce statutes or
policies that do not themselves create a private right of
action by bootstrapping such standards” into a
constitutional claim. Bowens v. Wetzel, 674 F. App’x
133, 137 (3d Cir. 2017); see Hill v. Hickman Cnty. Jail,
2015 U.S. Dist. LEXIS 110865 (M.D. Tenn. Aug. 21,
2015). Further, J.H. cannot rely on PREA to support
this claim because PREA was not mandatory for the
WCJDC in 2013. National Standards to Prevent,
Detect, and Respond to Prison Rape, 77 Fed. Reg.
37106, 37110 (June 20, 2012) (“PREA does not require
State and local facilities to comply with the
Department’s standards, nor does it enact a
mechanism for the Department to direct or enforce
such compliance.”); Thompson v. Coulter, 680 F. App’x
707, 711-12 (10th Cir. 2017) (because Utah has not
adopted PREA, the plaintiff could not rely on PREA to
support his claim).14
J.H.’s expert’s opinion that PREA regulations
applied to local detention facilities in 2013, in addition
to being a legal conclusion as to which she is not
qualified to opine, is contradicted by the legal
14

Since December 2013, WCJDC has become PREA-compliant.
While PREA does not mandate compliance of local detention
facilities, WCJDC entered into a contract with the State of
Tennessee in 2014, a provision of which requires PREAcompliance. R. 333-1, PageID#10606.

24
authorities above. Further, PREA cannot be used to
establish a standard of care in 2013 when J.H.’s expert
acknowledges that no juvenile detention facility in the
country had been certified as PREA-compliant in 2013,
and admits that she is not aware of any juvenile
detention facility in Tennessee that had begun to
implement PREA in December 2013. Because PREA
was not applicable to the WCJDC in 2013, this case is
not indicative of “constant tension” between the
legislative and judicial branches, as J.H. proclaims.
Pet. 24.
Petitioner implies that Tennessee agreed to be
bound by the PREA regulations in 2003 (Pet. 28), but
the PREA regulations did not even become effective
until 2012. R. 305-4, PageID#5383. The Tennessee
Department of Children’s Services (DCS) issued a
report on July 20, 2014 stating that it embraced the
principles of PREA for its facilities and contract
providers. R. 305-4, PageID#5382. Such was not
applicable to the WCJDC in 2013, both because it had
not yet been issued and because the WCJDC was not a
contract provider for DCS in 2013.
Petitioner identifies PREA requirements related to
isolation and then states that DCS adopted the PREA
standards in 2010 in Policy 18.8. Pet. 28. However, that
policy, as adopted in 2010, does not contain language
from PREA regarding requirements for residents who
are isolated from others. See R. 305-4,
PageID#5384–94. Even if the DCS policy had included
such language at that time, the policy applied only to
DCS facilities and contracted providers and the
WCJDC did not fall into either of those categories in

25
2013. Similarly, DCS Policy 25.10, also cited by J.H.,
was not applicable to the WCJDC in 2013.
Even if the Tennessee Corrections Institute (TCI)
minimum standards cited by J.H. were applicable in
2013,15 the requirement of a disciplinary hearing
within 72-hours of placement in segregation would not
have applied to J.H.’s placement for safety reasons.
Further, while such a regulation might be relevant to
a procedural due process claim, J.H. did not plead one,
and does not pursue a procedural due process claim
here. Those standards did not prohibit single cell
housing of juveniles.
Petitioner cites articles published in the
Washington University Journal of Law & Policy (WJL)
and the Journal of the American Academy of
Psychiatry and the Law (JAAPL), a policy statement of
the American Academy of Child and Adolescent
Psychiatry (AACAP), a publication of the Americans
Civil Liberties Union (ACLU), and a United Nations
resolution.16 These materials do not create “clearly

15

The enabling statute, Tenn. Code Ann. § 41-1-140, was amended
in 1996, removing the statutory authority to promulgate
regulations governing juvenile detention facilities from TCI and reassigning it to DCS, although DCS did not issue regulations until
2017. Accordingly, the TCI Minimum Standards were not
controlling legal authority in 2013, although they were the
operational standards most recently supplied by the State.
16

The WJL and JAAPL articles specifically address confinement
of adults, and AACAP statement relies upon studies of adults.
Despite publication of those articles, solitary confinement of adults
continues to be upheld as constitutional in the Sixth Circuit.
Rivers v. Turner, No. 16-4241, 2017 U.S. App. LEXIS 25764, at *10

26
established law,” nor do the research studies cited in
the Amici Curiae Brief filed below.
In Bell v. Wolfish, this Court held that standards
issued by various groups and recommendations of a
Policy Task Force regarding conditions of confinement
were not determinative of Constitutional requirements.
441 U.S. at 543 n.27. In Rhodes v. Chapman, 452 U.S.
337 (1981), this Court held that double celling did not
violate prisoners’ Eighth Amendment rights even
though several studies recommended that each inmate
have at least 50-55 square feet of living quarters.
Justice Marshall noted in his dissent, “No one would
suggest that a study, no matter how competent, could
ever establish a constitutional rule.” Id. at 376 n.8.
Since recommendations of various groups and research
studies do not establish the constitutional minima for
purposes of assessing whether a constitutional
violation occurred, they certainly do not show that a
constitutional right was “clearly established” for
purposes of qualified immunity. This conclusion is wellfounded. Clearly established law should not be dictated
by publications from advocacy groups or research

(6th Cir. Dec. 15, 2017) (segregation for eight and a half months
did not violate prisoner’s rights because “segregated confinement
in itself does not constitute atypical and significant hardship.”);
Powell v. Washington, No. 17-1262, 2017 U.S. App. LEXIS 25477,
at *9 (6th Cir. Dec. 18, 2017) (Prisoner’s six-month confinement in
administrative segregation is not an atypical and significant
hardship and therefore does not implicate due process rights). The
secondary materials relied upon by J.H. do not amount to “clearly
established law” with respect to juveniles when those materials are
directed toward adults and the conditions described remain
permissible for adults under Sixth Circuit precedent.

27
studies because advocacy on both sides of virtually any
important constitutional issue would inevitably
produce confusing and conflicting guidance for state
officials.17

17

Studies have reached conflicting conclusions regarding the
effects of solitary confinement, thereby demonstrating that studies
cannot be relied upon to dictate clearly established law. A study
published in 2013 found that inmates in the Colorado prison
system did not experience significant psychological decline in
administrative segregation. See Maureen L. O’Keefe, et al., A
Longitudinal Study of Administrative Segregation, 41 J AM ACAD
PSYCHIATRY LAW 49, 49-60 (2013). The year-long study examined
inmates with and without mental illness in administrative
segregation as well as a control group in general population. The
results of the study did not support the hypothesis that inmates
experience significant psychological decline in administrative
segregation. Id. at 56. Twenty percent of the inmates improved in
administrative segregation over time, while 7% got worse, with the
remainder staying stable. Paul Gendreau & Ryan Labrecque, The
Effects of Administrative Segregation: A Lesson in Knowledge
Cumulation, in The Oxford Handbook of Prisons and
Imprisonment (John Wooldredge and Paula Smith eds., 2015), p.
10. Earlier studies reaching the opposite conclusion failed to
empirically assess previous mental health histories of the studied
inmates, so it was not clear from the results of those studies
whether the solitary confinement conditions caused mental
distress or whether symptoms were pre-existing. Gendreau, supra,
p. 32; O’Keefe, supra, pp. 49-50. The results of the Colorado study
were consistent with two prior studies that found that
administrative segregation of up to 10 days and of 60 days did not
result in deterioration of mental health. O’Keefe, supra, p. 50.
These studies demonstrate that in 2013, the effects of
segregation were disputed even within the psychiatric community.
A researcher addressing the subject in 2007 noted, “[T]he
literature on the impact of segregation is, at best, equivocal.” Carl
B. Clements, et al., Systemic Issues and Correctional Outcomes,
Expanding the Scope of Correctional Psychology, CRIMINAL JUSTICE

28
United Nations resolutions are not clearly
established law. A 2015 UN General Assembly
Resolution prohibits the use of “prolonged solitary
confinement” for adults, yet longstanding Sixth Circuit
precedent holds that segregated confinement is not an
“atypical and significant hardship.”18 That principle
has been applied subsequent to the introduction of the
UN Resolution. Rivers, 2017 U.S. App. LEXIS 25764, at
*10; Powell, 2017 U.S. App. LEXIS 25477, at *9.
Similarly, the ACLU criticizes the use of solitary
confinement in adult facilities, while such conditions
remain permissible under Sixth Circuit precedent.
These publications and position statements are not
“clearly established law.”19
AND BEHAVIOR, Vol. 34 No. 7, pp. 919-32, July 2007, p. 925. And in
2015, another researcher who studied administrative segregation
noted that the assumption that administrative segregation will
exacerbate mental illness “is naïve” and “is not predicted from
theory.” He stated, “Mentally disordered offenders function best in
quiet environments, which reduce confusing perceptual and
cognitive stimuli.” Gendreau, supra, p. 18. Studies available in
2013 demonstrate that there was not universal agreement among
mental health professionals as to the effects of segregation, and
even if there had been, such would not constitute “clearly
established law” that would dictate expectations for juvenile
detention staff.
18

With limited exceptions for extremely long periods of isolation,
which is clearly not an issue in this case.
19

ACLU reports contradict applicable law in a number of areas,
further exhibiting that ACLU publications are not reflective of
“clearly established law.” For example, the ACLU published a
statement opposing the death penalty in 2014, but the death
penalty remains constitutional. See Tucker v. Louisiana, 136 S. Ct.
1801 (2016).

29
The National Commission on Correctional
Healthcare (NCCH) statement cited by Petitioner (Pet.
25, n. 2) is not sufficient to confer Constitutional rights,
and in any event, was adopted in April 2016, years
after J.H.’s detention. The statement acknowledges
widespread use of solitary confinement in the U.S. and
increased controversy regarding the use of same in
“recent years”, an indication that the law in this area
was not clearly established in 2013.
The Sixth Circuit’s ruling that the inapplicable
regulations, journal articles, and research studies cited
by J.H. are not “clearly established law” is consistent
with this Court’s precedent. J.H. has not cited any law
to the contrary. This Court’s review on this point is not
necessary, nor is it a good use of this Court’s resources.
II.

The Court of Appeals decision does not
conflict with any other circuit, nor do the
other public policy concerns cited by J.H.
justify review of this particular case.

J.H. has not identified any circuit court opinion
contrary to the holding of the Sixth Circuit in this case.
J.H. has not identified a case denying qualified
immunity in circumstances even remotely similar to
those presented in this case and he certainly has not
pointed to a split of authority sufficient to necessitate
this Court’s review.
As to the first Question Presented, J.H. has not
identified a split of authority as to the continuing
validity of Hope v. Pelzer. The courts below did not
opine that Hope v. Pelzer is “dead” nor would such a
finding be determinative in this case. As to the second

30
Question Presented, J.H. has not identified any split of
authority addressing “when other authorities, such as
statutes, policies, administrative orders, and published
professional opinions establish that a reasonable state
actor defendant had ‘fair warning’ that his conduct was
unconstitutional.” J.H. has not identified any case in
which sources similar to those he relied upon were
found to constitute clearly established law.
The only circuit split identified by J.H. is related to
whether qualified immunity is appropriate for social
workers who make false statements to obtain a child
removal order. Pet. 22. This “split of authority” focuses
more on the differences in the underlying “clearly
established law” in the respective circuits than upon
analysis of the qualified immunity standard. Even if
the alleged split of authority is more than illusory, that
factual scenario is so far afield of the issues in this case
that those cases do not merit consideration here. This
case certainly is not the proper vehicle to determine
clearly established law for social workers seeking child
removal orders. J.H. has not identified any relevant
split of authority or any other compelling reason for
this Court’s review.
Review of this case would not resolve the concerns
raised by Justice Thomas in Baxter v. Bracey, 140 S.
Ct. 1862 (2020) and Ziglar v. Abassi, 137 S. Ct. 1843
(2017), because Petitioner is not asking this Court to
re-examine the underpinnings of qualified immunity.
Rather, Petitioner has asked only for unnecessary
clarification of the qualified immunity standard.
This Court recently denied multiple petitions
challenging qualified immunity. Brennan v. Dawson,

31
No. 18-913, 2020 U.S. LEXIS 3209 (June 15, 2020);
Baxter v. Bracey, No. 18-1287, 140 S. Ct. 1862 (June 15,
2020); Anderson v. City of Minneapolis, No. 19-656,
2020 U.S. LEXIS 3220 (June 15, 2020); Zadeh v.
Robinson, No. 19-676, 2020 U.S. LEXIS 3170 (June 15,
2020); Corbitt v. Vickers, No. 19-679, 2020 U.S. LEXIS
3152 (June 15, 2020); West v. Winfield, No. 19-899,
2020 U.S. LEXIS 3153 (June 15, 2020). This petition
presents a less compelling case for review of the
qualified immunity standard than those recently
denied.
This case does not implicate Petitioner’s concern
that qualified immunity can systematically deprive
individuals of a constitutional remedy when courts
decline to address whether a constitutional violation
occurred because the panel majority, presuming J.H.’s
conclusory allegations were true, addressed solitary
confinement of juveniles and those with mental
illnesses.20 A number of changes have occurred in the
legal landscape with respect to solitary confinement
since 2013. As noted above, Doe v. Hommrich was
decided in 2017. The panel majority’s 2020 decision in
this case will be instructive moving forward.
Additionally, the federal government issued guidelines
related to the use of restrictive housing for juveniles in
January 2016.21 DCS issued new minimum standards
20

Moreover, if the Court were interested in addressing this issue,
the solution would be to revisit Pearson v. Callahan, 555 U.S. 223
(2009), not overhaul qualified immunity. In any event, this case
does not present the proper vehicle for such review.
21

U.S. Department of Justice Report and Recommendations
Concerning the Use of Restrictive Housing, Final Report, January 2016.

32
for juvenile detention centers in June of 2017 that are
applicable to the WCJDC and place limits on the use of
“seclusion.”22 The Tennessee General Assembly passed
the Juvenile Justice Reform Act of 2018 addressing
housing issues with respect to juvenile detainees. Tenn.
Code Ann. § 37-1-101, et seq. These new measures,
adopted years after the events in this case, represent a
significant departure from the standards that were in
effect in 2013. This guidance was not available in 2013,
further bolstering Respondents’ argument that clearly
established law holding J.H.’s conditions of
confinement unconstitutional did not exist in 2013.
Because of these changes and because the panel
majority addressed these issues, review of this case
need not be undertaken to address the concerns raised
by Justice Sotomayor in Apodaca v. Raemisch, 139 S.
Ct. 5 (2018). More specific guidance would be difficult,
if not impossible, to provide effectively in the context of
this case, given the uncertainty surrounding the lower
courts’ factual determinations, discussed in § I.B.
III.

The lower courts’ grant of qualified
immunity was correct.

Even if this Court were to engage in error
correction, such is not necessary here where qualified
immunity was properly granted. Officials are entitled
to qualified immunity unless (1) they violated a federal
statutory or constitutional right, and (2) the

22

Tenn. Dept. of Children’s Servs. Minimum Standards for
Juvenile Detention Centers and Temporary Holding Resources,
Chapter 0250-04-08-.11.

33
unlawfulness of their conduct was “clearly established
at the time.” Wesby, 138 S. Ct. at 589.
McMahan did not violate J.H.’s Fourteenth
Amendment rights by placing him in a single cell. If a
condition of pretrial detention is “reasonably related to
a legitimate governmental objective,” it does not,
without more, amount to punishment. Bell, 441 U.S. at
538. As explained above, J.H. was placed in a single
cell due to safety concerns after a November 17, 2013
incident in which three juveniles reported that J.H.
threatened them and engaged in destructive behavior.
J.H.’s housing placement was not changed as a
punishment but rather to further the legitimate
government objective of maintaining the safety of the
juveniles in the facility. McMahan’s conclusion that
allowing J.H. to interact with other juveniles would
present safety concerns is supported by the opinions of
J.H.’s treating physicians, who noted around that same
time that his “significant physically and verbally
aggressive behaviors … creat[ed] extreme challenges at
home” (Pet. App. 31a–32a) and that he “represent[ed]
a very real risk to other children” (R. 386,
PageID#13270–71). Detention staff reasonably believed
that limiting J.H.’s interaction with other juveniles was
necessary to ensure safety.
McMahan had a duty to protect other juveniles from
J.H. It is critical to the effective management of a
juvenile detention facility that when a juvenile acts out
in an aggressive and destructive manner, as J.H. did,
that facility staff be able to separate that juvenile from
children who might otherwise be harmed. Separating
a juvenile who poses a threat to other juveniles in

34
detention is exactly the sort of determination that the
Bell Court warned should be left to the discretion of
facility administrators and given wide deference by
courts. J.H.’s placement was changed, not as
punishment, but to further the legitimate government
objective of maintaining the security of the facility and
the safety of the juveniles within it, including J.H.
Such an administrative placement is not punitive
under Bell.
McMahan did not violate “clearly established law”
with respect to J.H.’s housing placement in 2013.
Recent precedent from this Court supports a
particularized analysis of whether the conduct at issue
violated clearly established law in light of then-existing
precedent. Wesby, 138 S. Ct. at 589-90; White, 137 S.
Ct. at 552; Mullenix, 577 U.S. 7. J.H. has not cited any
pre-2013 case law presenting even remotely similar
facts and the inapplicable regulations, journal articles
and research studies he cites simply do not amount to
clearly established law. As explained above, Hope v.
Pelzer does not alter this conclusion.
The district judge and panel judges unanimously
agree that qualified immunity is warranted in this
case. It would be unfair to subject McMahan to
potential monetary liability where the law at the time
of the conduct in question was undeveloped and has
only since begun to emerge and where judges continue
to disagree about whether a constitutional violation
even occurred. Certiorari is unwarranted to review the
Sixth Circuit’s application of settled qualified
immunity principles to this case.

35
CONCLUSION
For the foregoing reasons, the Petition for a Writ of
Certiorari should be denied.
Respectfully submitted
LISA M. CARSON
Counsel of Record
LEE ANN THOMPSON
BUERGER, MOSELEY & CARSON, PLC
306 Public Square
Franklin, TN 37064
(615) 794-8850
lcarson@buergerlaw.com
lthompson@buergerlaw.com
Counsel for Respondents

